                             Office of the Inspector General
December 20, 1999

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Reliability of the Data Used to Measure the Dollar
Accuracy of Old-Age and Survivors Insurance Payment Outlays (A-02-98-01001)


Attached is a copy of the subject final report. The objective of this audit was to
determine the reliability of the data and the accuracy of the estimate used by the Social
Security Administration in Fiscal Year 1996 to measure the dollar accuracy of Old-Age
and Survivors Insurance payment outlays.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide them within the
next 60 days. If you wish to discuss the final report, please call me or have your staff
contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at
(410) 965-9702.



                                                 James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




      PERFORMANCE MEASURE
    REVIEW: RELIABILITY OF THE
    DATA USED TO MEASURE THE
   DOLLAR ACCURACY OF OLD-AGE
     AND SURVIVORS INSURANCE
        PAYMENT OUTLAYS

  December 1999    A-02-98-01001




AUDIT REPORT

                                  Office of the Inspector General


William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Reliability of the Data Used to Measure the Dollar
Accuracy of Old-Age and Survivors Insurance Payment Outlays (A-02-98-01001)


The Government Performance and Results Act (GPRA) of 1983, Public Law
103-62, 107 Stat. 285, requires the Social Security Administration (SSA) to develop
performance indicators that assess the relevant service levels and outcomes of each
program activity. GPRA also calls for a description of the means employed to verify and
validate the measured values used to report on program performance. SSA has stated
that the Office of the Inspector General (OIG) plays a vital role in evaluating the data
used to measure performance. The objective of this audit was to determine the
reliability of the data and the accuracy of the estimate used by SSA in Fiscal Year
(FY) 1996 for the following GPRA performance indicator:

        Dollar Accuracy of Old-Age Survivors Insurance (OASI) payment outlays:
        Percent without overpayments – 99.8
        Percent without underpayments – 99.8

RESULTS OF REVIEW

We found that the data used by SSA to report on the FY 1996 title II OASI accuracy rate
was statistically reliable. However, in determining the reliability of the data, we reviewed
the Stewardship Review process (see Appendix A) and found weaknesses in the
collection and reporting of the data. Specifically, we are concerned that: (1) the
accuracy rate did not include errors less than $5.00 and those subject to administrative
finality,1 (2) payment errors were not properly calculated, reported, or reviewed,
(3) feedback reports were not completed or followed up, and (4) methodology and case
files were not adequately documented. While the exclusion of these errors from the
projection did not materially affect the FY 1996 accuracy rate, these weaknesses should

1
 Administrative finality generally provides that any overpayment for which the beneficiary is not at fault
and which has been paid continuously for 4 years cannot be adjusted, while any underpayment would be
adjusted.
be corrected since their effect upon future years’rates can not be determined. These
errors are already recorded in the Office of Quality Assurance (OQA) data base, and
their addition into the payment accuracy rate calculation would not entail the use of
additional resources.

THE DATA USED TO MEASURE PAYMENT ACCURACY WAS RELIABLE

Based upon our review of a sample of OQA case files and our documentation of OQA’s
Stewardship sampling methodology, we believe the FY 1996 title II OASI accuracy rate
is reliable. While we found several discrepancies in our review of all 72 dollar-error
cases identified and of 100 nondollar-error cases from the universe of 1,434 cases
reviewed by OQA, the effect of these discrepancies was not material to the accuracy
rate. Specifically, these discrepancies had an immaterial effect of .0001 percent on the
accuracy rate.

While OQA did not have detailed documentation of its sampling methodology, we
obtained descriptions of the process from OQA officials and determined the extent to
which OQA corrected prior weaknesses in its methodology. We ensured that the
methodology had been implemented. Based on this work, we believe that OQA’s
sampling design is statistically valid.

ACCURACY RATE DID NOT INCLUDE ALL ERRORS

While OQA analyzes and records all payment errors so that their relative significance
can be evaluated by special studies, the payment accuracy rate does not recognize
errors less than $5.00 or those subject to administrative finality. OQA excludes errors
less than $5.00 since they do not significantly affect the accuracy rate. OQA also
excludes payment errors subject to administrative finality because the payments cannot
be adjusted.

PAYMENT ERRORS WERE NOT PROPERLY CALCULATED, REPORTED OR
REVIEWED

We found the dollar error amounts reported by OQA in 8 of the 72 dollar-error cases, or
11 percent, were incorrect. Six of these cases involved incorrect calculations of the
dollar error amount. The remaining two cases’calculations were correct, but the
amounts were reported incorrectly to the OQA data base used to project the accuracy
rate. These discrepancies occurred because OQA did not adequately follow the case
review procedures.

These errors were not detected during the OQA, Central Office (CO) consistency
review. OQA procedures require CO to perform a consistency review on all payment-
error cases. If an error is found, CO informs the regional OQA office of the corrective
action to be taken. Based on the information in the case files, CO should have
identified these discrepancies and reported them for correction.




                                           2

OQA DID NOT COMPLETE OR FOLLOW-UP ON FEEDBACK REPORTS

When an error is identified in a case review or when a case is excluded because the
beneficiary refuses to cooperate, a quality reviewer (QR) must complete and send a
feedback report to the operating component at the applicable Program Service Center
indicating the corrective action to be taken. The QR is responsible for monitoring to
ensure that the correction is made. The accuracy of the OQA data base can be
affected when an operating component makes an adjustment different than the one
documented in a feedback report or when no adjustment is made at all.

We identified 10 cases where either the report form was not completed or the
appropriate corrective action was not taken. Feedback reports were not in the file for
two of these cases that required corrections to earnings records. There were
three cases in which the beneficiaries refused to cooperate, and OQA did not complete
feedback reports. Although OQA informed the operating components of errors, the
remaining five cases were never corrected. The operating component attempted to
correct three of these, but the actions were performed incorrectly.

When a QR detects an error that is outside the scope of the Stewardship Review, an
“informational”feedback report is completed and sent to the operating component for
corrective action. In this instance, the QR is not responsible for following up. In one
case, the QR completed an “informational”feedback report; however, no action was
taken. Incorrect action in one other case caused an overpayment to the beneficiary.

METHODOLOGY AND CASE FILES WERE NOT ADEQUATELY DOCUMENTED

While the Stewardship sampling methodology has continually evolved and been refined
in response to prior weaknesses noted by OIG, OQA did not have detailed
documentation of its sampling methodology. Therefore, we obtained descriptions of the
process from OQA officials and determined the extent to which OQA corrected prior
weaknesses noted in its methodology. Additionally, to the extent data was available, we
tested the implementation of the methodology.

Also, according to the OQA manual, adequate case file documentation is needed to
provide an audit trail. A case file must contain all information necessary to establish
review findings, and descriptions of development undertaken, including all worksheets
and conclusions reached. The QR must also conduct a full investigation of earnings
when inconsistencies exist.

During our review, we found 20 occurrences of inadequate documentation in the OQA
case files. In eight of these occurrences, forms, primarily related to date of birth
determinations or case review analyses for deceased nonsampled number holders,
were missing. There were also six instances where the QRs did not properly address
various issues that could have affected the beneficiaries’payments and five cases
where the QRs did not properly develop inconsistencies in earnings records. In the
remaining case, the beneficiary refused to cooperate with the QR and the case should


                                            3

have been excluded from the review since the earnings could not be verified. In the
FY 1998 SSA Management Letter, independent public accountants identified similar
examples of inadequate documentation and noted that OQA needed to improve the
overall quality of its documentation and accuracy of its data bases.

CONCLUSIONS AND RECOMMENDATIONS

Although the FY 1996 title II accuracy rate of 99.8 percent was reliable, we believe that
the completeness and consistency of the Stewardship Review could be improved.
While excluding errors of less than $5.00 and those not subject to adjustment because
of administrative finality did not materially affect the FY 1996 accuracy rate, their
inclusion could affect future accuracy rates. Similarly, incorrect payment calculations
and lack of appropriate follow-up on feedback reports could also have a material effect
at some point. Additionally, to ensure a complete audit trail and facilitate an
independent assessment of procedures performed, OQA should fully document its
sample methodology and case file reviews.

We recommend that SSA take the following corrective actions to lessen the risk of
inaccuracy in the calculation and reporting of future OASI Stewardship accuracy rates:

1.    Include all error cases in the calculation of the accuracy rate;
2.    Calculate, report, and review payment errors correctly;
3.    Properly complete and process all feedback reports; and
4.	   Formally document the sampling methodology and ensure consistent documentation
      of case file development.

AGENCY COMMENTS

SSA was pleased to note that the OIG review indicated that the data used to report on
the FY 1996 title II OASI accuracy rate was statistically reliable. SSA agreed, in part,
with the first recommendation and agreed fully with the remaining three
recommendations.

SSA agreed with part of the first recommendation, which was to include all error cases
in the calculation of the accuracy rate. SSA agreed to include payment discrepancies of
less than $5.00 in the calculation of the OASI accuracy rate beginning with the FY 1999
review. However, SSA did not agree that overpayments subject to administrative finality
should be included. SSA stated that including payments subject to administrative
finality as a measure of accuracy would distort the validity of the data since they are not
subject to correction. SSA also added that while the inclusion of these cases would
have no impact on the underpayment dollar accuracy rate and a minimal impact on the
overpayment dollar accuracy rate, OQA does track these cases to establish trends and
make recommendations to SSA management for improvement. The full text of SSA’s
comments is provided in Appendix C.




                                            4

OIG RESPONSE

The purpose of the Stewardship Review is to provide an assessment of the accuracy of
payments in the title II program. Although payments subject to administrative finality
cannot be adjusted, they are erroneous payments. These payments should be included
in the calculation of the title II rate since their inclusion would result in a better
representation of the accuracy of title II payments.

We appreciate SSA’s proposed implementation of the remaining recommendations. We
believe the proposed changes will improve the Stewardship Review process and
provide greater precision in the calculation and reporting of the payment accuracy rate.



                                                  James G. Huse, Jr.




                                           5

                              APPENDICES


APPENDIX A – Background

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – Major Contributors to this Report

APPENDIX E – SSA Organizational Chart

                                                                           APPENDIX A


                              BACKGROUND


The Office of Quality Assurance and Performance Assessment (OQA), formerly known
as the Office of Program and Integrity Reviews, serves a quality assurance function
under the Deputy Commissioner for Finance, Assessment and Management and the
Chief Financial Officer. OQA conducts quality assurance reviews and special studies to
evaluate and assess the integrity and quality of the Social Security Administration (SSA)
programs with emphasis on preventing program and systems abuse, eliminating waste,
and increasing efficiency. One of OQA’s quality assurance reviews is the annual
Old-Age and Survivors Insurance (OASI) Stewardship Review. The Stewardship
Review selects a sample of OASI payments issued each month to determine the
accuracy rate and compliance of OASI payments with national policies and procedures.
It is also designed to assist management in formulating operating policy, and improving
procedures to better administer the OASI program.

The quality reviewers (QR) are located in 10 regional offices, known as the Office of
Regional Quality Assurance and Performance Assessment. The QRs review each
payment by using the Quality Assurance Manual procedures and perform desk reviews,
interview beneficiaries, and obtain necessary evidence to assess payment accuracy.
The data is analyzed and projected to national payments as an indicator of SSA’s
success in paying OASI benefits correctly.

The Stewardship accuracy rates are reported annually in a memorandum to SSA’s
Commissioner, as well as to Congress and other interested parties. SSA also reports
the accuracy rates in its annual Accountability Report as a benefit-payment
performance measure.

SSA’s goal, as stated in the Fiscal Year (FY) 1999 Annual Performance Plan, is to
continue issuing OASI payments 99.8 percent free of overpayments or underpayments.
During FY 1996, SSA distributed $299 billion to 37.6 million OASI beneficiaries.
                                                                          APPENDIX B


                 SCOPE AND METHODOLOGY


We reviewed the sample methodology employed in the FY 1996 title II Stewardship
Review to assess its reliability as a data source for reporting payment accuracy. Due to
the lack of formal documentation, we relied primarily upon discussion with OQA officials
to detail the methods used in the Stewardship Review. In addition, we documented
through discussion any significant changes made in the FY 1997 and 1998 reviews.

We reviewed a random selection of 100 cases from the FY 1996 Retirement and
Survivors Insurance Modernized Assessment System (RMAS), which is the data base
containing the results of the review of 1,434 cases by OQA. We reviewed FY 1996 data
as it represented the most current data available at the commencement of our review.
The data base is designed to receive, tabulate, and evaluate the accuracy of payments
for the title II Stewardship cases. We reviewed these cases to determine if SSA met the
FY 1996 title II Stewardship accuracy rate. We verified all aspects of OQA’s desk and
field reviews by following the procedures outlined in the OQA manual. This included a
verification of all factors of entitlement for each sampled beneficiary. We determined
whether the OQA case files contained all the required forms and whether all of the
necessary documents were secured. We also reviewed each OQA case file to verify
that the calculation of the beneficiary’s sample month payment, payment discrepancy, if
any, and all other pertinent data, were recorded correctly to the RMAS data base.

From the universe of 1,434 cases, we also reviewed 72 cases where OQA reported a
payment discrepancy of $5.00 or more. We limited our review of these cases to issues
directly related to the calculation of the beneficiaries’sample month payment, the
determination and calculation of the dollar error, and the entries made to the RMAS.
We traced case file information to the OQA data base to confirm the accuracy of the
data base and determined whether the operating components took corrective action on
OQA’s recommended changes.

Our selection of 100 random cases and 72 dollar-error cases resulted in 172 cases
chosen for review. However, we only reviewed 160 cases, as 12 of the dollar-error
cases were also included in the selection of the random cases.

In addition, we reviewed 62 cases that OQA excluded from its sample as circumstances
prevented their review from being completed. We determined whether these cases
were excluded in compliance with OQA procedures. We also determined the effect of
including errors less than $5.00 in the calculation of the accuracy rate.




                                           B-1

To complete our review, we obtained and reviewed the OQA manual and relevant
sections of Program Operations Manual System. We also interviewed OQA staff to gain
an understanding of the Stewardship process, the OQA data base, the statistical
methods used, and other relevant matters. In addition, for each case finding noted in
this report, we analyzed the OQA case file and all pertinent documentation with OQA
representatives and discussed the case findings with them. The OQA staff concurred
with our conclusions on each of these findings.

We provided details and documentation to OQA’s Central Office on eight cases where
the beneficiaries were either currently receiving incorrect payments, or the payments in
periods prior to the sample month were in error. The OQA staff indicated that they
would review each case and take whatever corrective action is necessary.

Our work was conducted at the New York Regional Office and at the OQA offices in
Jamaica, New York and Woodlawn, Maryland. The fieldwork was conducted from
June 1998 to April 1999. Our audit was performed in accordance with generally
accepted government auditing standards.




                                           B-2

                   APPENDIX C


AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA
USED TO MEASURE THE DOLLAR ACCURACY OF OLD-AGE AND SURVIVORS
INSURANCE PAYMENT OUTLAYS" (A-02-98-01001)


Recommendation

Include all error cases in the calculation of the accuracy rate.

Comment

Although discrepancies of under $5 have virtually no impact on the

dollar accuracy rate and, in the past, these errors were excluded

in an effort to focus corrective action on discrepancies with the

greatest impact upon trust fund and/or beneficiaries, the Office

of Quality Assurance and Performance Assessment (OQA) will include

these errors in the calculation of the Old-Age and Survivors

Insurance (OASI) accuracy rate beginning with fiscal year

(FY) 1999 data.


SSA's regulations on administrative finality provide that

determinations and decisions made by the Agency can be reopened

and revised only for certain reasons and within certain periods of

time. Since these determinations are the final decisions of the

Commissioner, they are presumed to be correct and payments subject

to administrative finality cannot be adjusted. No overpayment

exists or should be computed for the period. If these cases were

counted as an error there would be presumption that SSA would take

corrective action.


We believe there is little utility to reporting situations that

are not subject to correction and including these cases as a

measure of accuracy would distort the validity of the data. OQA

data show that inclusion of administrative finality would have

virtually no impact on the underpayment dollar accuracy rate and

minimal impact (about 0.02 percent for FY 1997) on the overpayment

dollar accuracy rate. It should be noted that OQA does track

these cases to establish trends and make recommendations for

improvement.





                                C-2

Recommendation

Calculate, report and review payment errors correctly.
Comment

We agree. OQA alerted regional management to the importance of
careful analysis in the conduct of reviews during the
February 1999 meeting of the Assistance and Insurance Program
Quality Branch Directors and Satellite Office Managers. OQA is
also in the process of evaluating the problem cases identified by
OIG and plans to share these cases with the regions. Following
this evaluation, OQA will clarify instructions and issue periodic
reminder items to analysts, as necessary. OQA will complete the
evaluation and all subsequent actions by the end of calendar
year 1999.

Recommendation

Properly complete and process all feedback reports.

Comment

We agree. OQA will issue periodic reminders and follow up with
regions on feedback reports.

Recommendation

Formally document the sampling methodology and ensure consistent
documentation of case file development.

Comment

We agree. OQA will update    the documentation for the sample
methodology to reflect the   current process and, following the
evaluation detailed above,   will issue reminders and conduct
followup reviews to ensure   consistency.




                                  C-3

                                                                      APPENDIX D


                        MAJOR CONTRIBUTORS


Office of the Inspector General

E. Scott Patterson, Director, Management Audits and Performance Monitoring
Frederick C. Nordhoff, Acting Director, Financial Management Audit
 Division and Performance Monitoring
Timothy F. Nee, Deputy Director
Arthur Treglia, Senior Auditor
John P. Harrison, Senior Auditor
Thomas J. Zimmermann, Program Analyst
Thomas M. Bannworth, Program Analyst
Alan L. Lang, Auditor
James Poyer, Statistician
Cheryl Robinson, Writer-Editor, Technical Services


For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-02-98-01001.
                            APPENDIX E


SSA ORGANIZATIONAL CHART

